CERTIFICATE OF SERVICE
I am counsel of record for Blaine Milam, appointed to represent him under 18 U.S.C.
§ 3599, and I am a member of the U.S. Supreme Court bar (#304861).
On June 2, 2021, I contacted Tomee M. Heining, counsel of record for the Respondent
in this case, who agreed to receive electronic service us this filing. On June 4, 2021, I
sent the following documents to counsel for the Respondent:
-

a motion for leave to proceed in forma pauperis; and
a petition for a writ of certiorari with appendix.

These documents were sent to:
Tomee Heining
Assistant Attorney General
Office of the Attorney General of Texas
Criminal Appeals Division
Tomee.heining@oag.texas.gov
Thus, I accomplished service as permitted by this Court’s April 15, 2020, order.
DATED: June 4, 2021

Respectfully submitted,
/s/ Jeremy Schepers
Jeremy Schepers
Counsel of Record
Supreme Court Bar No. 304861
Supervisor, Capital Habeas Unit
Office of the Federal Public Defender
Northern District of Texas
525 S. Griffin St., Ste. 629
Dallas, TX 75202
214-767-2746
214-767-2886 (fax)
jeremy_schepers@fd.org

